    March 28, 2003




Infrastructure and
Environment
Army Response to Chemical Agent
Incident at Tooele Chemical Agent
Disposal Facility
(D-2003-068)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

ASA(I&E)              Assistant Secretary of the Army (Installations and Environment)
GAO                   General Accounting Office
IG DoD                Inspector General of the Department of Defense
PMCD                  Program Manager for Chemical Demilitarization
TOCDF                 Tooele Chemical Agent Disposal Facility
          Office of the Inspector General of the Department of Defense
Report No. D-2003-068                                                     March 28, 2003
   Project No. (D2002CB-0200)

            Army Response to Chemical Agent Incident at Tooele
                    Chemical Agent Disposal Facility

                                Executive Summary

Who Should Read This Report and Why? Senior managers and officials responsible
for the chemical agent destruction program should read this report. The report discusses
requirements for the successful investigation of a chemical agent accident.

Background. Congress required DoD to destroy about 31,500 tons of highly toxic
chemical agents by April 2007, the deadline set by an international treaty for the
elimination of all chemical weapon stockpiles. The Office of the Secretary of Defense
and the Army shared program responsibility. During July 2002, of the eight programmed
chemical agent disposal program facilities, Tooele Chemical Agent Disposal Facility was
the only site operating. On July 15, 2002, at 8:20 a.m., two contractor maintenance
workers entered the liquid incinerator primary room to perform non-routine maintenance.
The portable GB agent monitor alarmed, and during a change of equipment the worker
transferred contamination from his leather glove to his head, hair, and respirator. The
exposed worker experienced miosis (reduction of eye pupil), red blood cell cholinesterase
depression, disorientation, headaches, blurry vision, tightness in the chest, and a runny
nose, all symptoms indicative of exposure to GB agent. This chemical event was the first
reported significant exposure to a worker during the life of the program. The Army
response to the chemical agent accident included separate investigations by the systems
contractor and the Army.

Results. Although the contractor’s investigation report of the chemical agent accident
that occurred at Tooele Chemical Agent Disposal Facility on July 15, 2002, was
insufficient, the subsequent Army report was comprehensive. The Army treated the
worker exposure as a serious accident, conducted an investigation led by senior Army
management, and used the investigation findings to generate program improvement. On
July 16, 2002, the Assistant Secretary of the Army (Installations and Environment)
appointed a Board of Investigation, and on September 23, 2002, signed the completed
report.

The Army Board of Investigation identified 50 findings, including 12 direct causes,
20 indirect causes, and 18 observations, and developed 97 recommendations for
corrective actions directed at the systems contractor and multiple organizations within the
Army. Army officials stated that the facility would not resume operation until corrective
actions related to direct causes were implemented. We reached the following conclusions
during our review.
   •   The Board President assembled a fully qualified team, conducted a complete
       investigation of the incident, and produced a comprehensive report. Provided the
       Army accurately tracks and verifies the correction of identified deficiencies, the
       investigation will have met the intent and purpose of preventing accident
       recurrence.

   •   DoD policy and Army regulations did not provide specific guidance governing
       investigation of this type of event. Even though the exposed worker demonstrated
       multiple symptoms of chemical nerve agent exposure, based on severity
       classification, the incident was not considered significant for reporting and
       investigation within DoD policy and Army regulations. However, the Assistant
       Secretary of the Army (Installations and Environment) recognized the
       significance of the incident, and the Board President investigated the event using
       procedures reserved for serious accidents.

   •   The systems contractor had an informal process for reporting safety concerns,
       preventing the contractor and the Army from verifying or disproving widely-held
       employee negative opinions. While systems contractor management self-
       identified problems with communicating safety issues, results of an employee
       opinion survey of 212 employees provided contradictory views of the
       communication between employees and managers.
               − More than 85 percent of the employees were aware of the safety
                   reporting process and believed management encouraged safety
                   reporting.
               − More than 50 percent of the employees surveyed indicated that
                   management stressed production over safety during operations.
               − Sixteen percent of the survey respondents stated they had been told to
                   fix a problem and not report it.

   •   The Army investigation and corrective action process compared favorably with
       similar processes used by other Services and other Federal agencies. All
       processes we reviewed contained similar elements, metrics, and standards.

On January 13, 2003, the Deputy Assistant Secretary of the Army for Environment,
Safety, and Occupational Health led a multidisciplined team to the Tooele Chemical
Agent Disposal Facility to verify corrective action completion.

Management Comments. Although no comments were required, the Assistant to the
Secretary of Defense (Nuclear and Chemical and Biological Defense Programs) stated
that there were eight programmed chemical agent destruction sites, and that the lack of a
program manager for the chemical demilitarization program has not been determined to
be a reflection on the Army investigation.




                                            ii
Table of Contents

Executive Summary                                                       i

Background                                                              1

Objectives                                                              3

Finding
     Army Chemical Event Response                                       4

Appendixes
     A. Scope and Methodology                                          12
         Prior Coverage                                                12
     B. Employee Opinion Survey                                        14
     C. Federal Agency Accident Investigation Processes                15
     D. Report Distribution                                            16

Management Comments
     Assistant to the Secretary of Defense (Nuclear and Chemical and
        Biological Defense Programs)                                   19
Background
    On July 19, 2002, the Assistant to the Secretary of Defense (Nuclear and
    Chemical and Biological Defense Programs) requested that the Inspector General
    of the Department of Defense perform an independent review of the Army
    investigation of a chemical agent event that occurred on July 15, 2002, at the
    Tooele Chemical Agent Disposal Facility (TOCDF), Utah.

    DoD Chemical Demilitarization Program. In 1985, Congress required DoD to
    establish an organization within the Army to manage the chemical agent
    destruction program. The Office of the Secretary of Defense and the Army shared
    management roles and program responsibility. The Army Program Manager for
    Chemical Demilitarization (PMCD) was responsible for program execution under
    the direction of the Assistant Secretary of the Army (Installations and
    Environment) (ASA[I&E]). The Army planned to destroy about 31,500 tons of
    highly toxic chemical agents by April 2007, the deadline set by an international
    treaty for the elimination of all chemical weapon stockpiles. As of March 2002,
    the Army had destroyed over one-quarter (8,044 tons) of the U.S. stockpile.
    During July 2002, of the eight programmed chemical agent disposal program
    facilities, TOCDF was the only site operating. TOCDF was a tenant facility
    located on the Deseret Chemical Depot. EG&G Defense Materials Inc. (EG&G),
    the on-site systems contractor, completed destruction of GB1 agent in
    March 2002, and in July 2002 was performing maintenance leading to the
    initiation of VX2 agent destruction. The chemical event of July 15, 2002, was the
    first reported significant exposure to a worker during the life of the program.

    Chemical Event at TOCDF. On July 15, 2002, at 8:20 a.m., two contractor
    maintenance workers entered the liquid incinerator primary room wearing
    minimum-level personal protective equipment (a full face industrial respirator,
    overalls, and leather boots and gloves) to perform non-routine maintenance
    requiring the exchange of an air pressure regulator. Immediately following the
    removal of the section of pipe containing the existing air pressure regulator, the
    portable GB agent monitor alarmed and both workers exited to the secondary
    room. The workers removed their industrial respirators and put on the
    Government-issued respirators. During the change of masks, the worker that had
    handled the pipe transferred contamination from his leather glove to his head,
    hair, and Government respirator. The two workers subsequently spent almost
    4 hours undergoing repeated decontamination cycles before medical personnel
    declared them free of contamination. The exposed worker demonstrated miosis
    (reduction of eye pupil) and red blood cell cholinesterase depression, indicative of
    exposure to GB agent. He later stated that he also experienced disorientation,
    headaches, blurry vision, tightness in the chest, and a runny nose.

    1
        GB agent, also known as sarin, is a nerve agent that was developed in the 1930s and 1940s and
        primarily attacks through the respiratory system. GB agent can also be absorbed through the
        skin and eyes.
    2
        VX agent, a nerve agent developed in the early 1950s, acts by absorption through the skin. VX
        agent injures and kills an enzyme of the human body essential for the functioning of the nervous
        system.



                                                  1
Guidance on Chemical Events. Applicable DoD and Army policy and guidance
address the chemical agent program and the reporting, investigating, and
recording of mishaps and accidents.

        DoD Instruction 6055.7, “Accident Investigation, Reporting, and Record
Keeping,” October 3, 2000, defines a chemical agent accident as any
unintentional or uncontrolled release of a chemical agent when, among other
things, individuals exhibit physiological symptoms of agent exposure. The
Instruction states DoD policy to establish and implement comprehensive
programs to investigate, report, and keep related records on accidental death,
injury, occupational illness, and property damage for DoD accidents. The
Instruction also establishes accident severity classes for reporting and
investigation according to the resulting injury, occupational illness, or property
damage, and requires DoD Component heads to develop procedures ensuring the
investigation and reporting of accidents resulting in injuries or reportable damage.
For accidents involving contractor personnel, the Instruction requires DoD
Component heads to direct contracting Components to conduct an investigation
and prepare a report.

       Army Regulation 385-61, “The Army Chemical Agent Safety Program,”
October 12, 2001, states that chemical events encompass all chemical accidents,
incidents, and politically and public sensitive occurrences. Specifically, a
chemical event applies to, among others, confirmed release of an agent from
munitions, or actual exposure of personnel to an agent above the allowable limits.
The regulation also states that chemical agent events will be reported according to
Army Regulation 50-6 and investigated by means of Army Regulation 385-40.

        Army Regulation 50-6, “Chemical Surety,” June 26, 2001, states that
chemical events will be reported directly to the Deputy Chief of Staff for
Operations and Plans, Army Operations Center. The regulation allows the Army
major command incurring the accident to determine the degree and level of
investigation, but requires the investigation board to include members
experienced in investigation procedures and the effects of chemical agents.

        Army Regulation 385-40, “Accident Reporting and Records,”
November 1, 1994, implements DoD Instruction 6055.7, provides policies and
procedures, and assigns responsibilities for the initial notification, investigating,
and reporting of Army accidents. Army Regulation 385-40 states that all Army
chemical events will be investigated for the purpose of accident prevention. It
also states that depending on the situation, any type of chemical event may
warrant a Headquarters, Department of the Army investigation. The regulation
defines accident classes based on severity, provides specific guidance on
appropriate investigative and reporting procedures for serious accidents, and
provides general guidance for other events. The Army implements the regulation
using Pamphlet 385-40, “Army Accident Investigation and Reporting,”
November 1, 1994.




                                      2
Objectives
    Our objective was to provide an oversight evaluation of the Army’s response to a
    nerve agent exposure that occurred at the TOCDF on July 15, 2002. Specifically,
    we determined if the Army’s investigation of this chemical event met Army
    requirements. In addition, we assessed the safety reporting process at TOCDF.
    We also compared DoD and Army investigation procedures and corrective action
    development following chemical agent incidents with other Federal agency
    processes. See Appendix A for a discussion of the scope and methodology of the
    review, and prior coverage related to the review objectives.




                                        3
           Army Chemical Event Response
           Although the contractor’s investigation report of the chemical agent
           accident that occurred at TOCDF on July 15, 2002, was insufficient, the
           subsequent Army report was comprehensive. The combined
           investigations were adequate and met DoD and Army requirements. We
           reached the following conclusions during our review.

               •   The Army assembled a fully qualified team, conducted a complete
                   investigation of the incident, and produced a comprehensive
                   report.

               •   While DoD policy and Army regulations did not provide specific
                   guidance governing investigation of this event, the Army response
                   satisfied the intent and purpose of accident investigation.

               •   The systems contractor had an informal process for reporting
                   safety concerns, systems contractor management identified
                   problems with communicating safety issues, and employees
                   indicated that management stressed production over safety during
                   operations.

               •   The Army investigation and corrective action process compares
                   favorably with similar processes in other Federal agencies.

           The Army planned to implement recommendations made by the Board of
           Investigation, and stated that production at TOCDF would not resume
           until corrective actions to prevent recurrence were completed and verified.


Army Response
    Contractor Investigation. The operating contract between the Army and EG&G
    required the contractor to complete and submit accident reports in accordance
    with Army Regulation 385-40. EG&G met contractual requirements by
    conducting a corporate investigation of the incident, preparing investigation
    documents, providing assistance to the Army Board of Investigation, and
    delivering the investigation report to PMCD on August 1, 2002. The EG&G
    investigation team performed a Kepner-Tregoe analysis, defining a direct cause as
    the proximate cause of the event and a root cause as the cause that must be
    removed to fix the problem permanently. The EG&G investigation team
    concluded that the direct causes of the event were chemical agent migration
    beyond the agent expected boundary, and the failure of personnel to wear
    appropriate personal protective equipment. However, the report stated the root
    cause of the accident as inadequate policy governing the choice of personal
    protective equipment. The EG&G investigators failed to address the agent
    migration in their root cause discussion. Army officials believed that the report
    was insufficient.




                                        4
    Army Investigation. On July 16, 2002, the ASA(I&E), under the authority of
    General Order No. 3 and in accordance with Army Regulation 385-40, assumed
    responsibility as the appointing authority for the investigation of the chemical
    agent event. He directed the Deputy Assistant Secretary of the Army for
    Environment, Safety, and Occupational Health to assemble a Board of
    Investigation (the Board) to investigate the chemical event in accordance with
    Army Regulation 385-40. The Deputy Assistant Secretary, as the President of the
    Board of Investigation (Board President), named initial board members on the
    same day. The Board assembled at TOCDF and conducted data collection on site
    from July 17 through July 26, 2002. The ASA(I&E) signed the completed report
    of investigation on September 23, 2002.


Oversight Assessment of the Army Response
    While DoD policy and Army regulations did not provide specific guidance
    governing investigation of this event, the Army response satisfied the primary
    purpose of accident investigation. Even though a worker demonstrated multiple
    symptoms of nerve agent exposure, the incident was not considered significant for
    reporting and accident classification within DoD policy and Army regulations.
    However, the ASA(I&E) recognized the significance of the incident and the
    Board President investigated the event using procedures reserved for serious
    accidents.

    DoD and Army Chemical Event Classification. DoD and Army classification
    of chemical events differs for reporting and investigation. For reporting, DoD
    policy defines the worker exposure of July 15, 2002, as a chemical agent accident.
    However, since the chemical agent accident did not involve DoD personnel and
    caused no reportable damage, it was not clear whether the accident was
    reportable. According to Army Regulation 385-61, the worker exposure of July
    15, 2002, was a chemical event subject to Army Regulation 50-6 for reporting.
    According to Army Regulation 50-6, the worker exposure was specifically a
    Category II chemical event, and also a chemical accident. On July 15, 2002, the
    Commander of Deseret Chemical Depot accurately reported the worker exposure
    as a
    Category II chemical event.

    For investigation, the accident did not meet severity classification criteria for
    either DoD policy or Army regulations. The Board President classified the
    accident as an “event,” since the exposed individual did not lose time from work
    beyond the shift during which the accident occurred and there was insignificant
    property damage. Neither Army Regulation 385-40 nor Army Pamphlet 385-40
    provides specific guidance on how to investigate and report on accidents
    classified as “events,” or handle contractor accidents. In addition, Army
    Regulation 385-40 only applies to “Army accidents,” and it was unclear if the
    event met the definition. However, the ASA(I&E) considered the worker
    exposure a significant event and exercised his authority to conduct a
    Headquarters, Department of the Army investigation.




                                         5
Army Investigation Process. According to Army Regulation 385-40, the
primary purpose of investigating and recording accidents is prevention. The
Army investigation process for serious accidents required the Board President to
assemble a qualified board, conduct the investigation to identify cause factors and
deficiencies, and produce a report summarizing findings and recommendations.

         Investigation Board. On July 16, 2002, with the approval of the
ASA(I&E), the Board President named eight individuals to the board based on
personal knowledge of their expertise and experience. Board participants were
initially designated as a member, adviser, or observer. The Board President
reclassified observers as advisors due to their high level of participation during
the data collection and deliberation process. Through the addition of five
technical experts during the investigation process, the final composition of the
board was six voting members and eight non-voting advisors.

        To ensure an unbiased investigation, the ASA(I&E) named board
members from organizations other than the activity incurring the accident and had
no personal interest in the outcome. The Board President was outside the PMCD
line of authority. The remaining five members were from:

           •   the Centers for Disease Control and Prevention, U.S. Department
               of Health and Human Services (two members);

           •   the Office of the Director of Army Safety;

           •   the U.S. Army Center for Health Promotion and Preventive
               Medicine; and

           •   the U.S. Army Soldier Biological and Chemical Command.

       The eight board advisors consisted of three Government employees, four
Government contract employees, and one Oregon state employee. The Board
President chose two of the Government employee advisors from Headquarters,
PMCD. Also, two of the four Government contract employees chosen worked
under contract to PMCD. However, all eight advisors selected by the Board
President met the requirements of Army Regulation 385-40, and there was no
evidence of bias or negative impact on the investigation.

        Investigation Process. Army Commanders are required to investigate
and analyze accidents to the extent needed to identify cause factors and
deficiencies, and develop countermeasures to prevent similar accidents. Army
Pamphlet 385-40 outlines the required investigation phases: planning, data
collection, and data analysis. Since this accident was an “event” under
classification severity criteria, the Board was not required to follow the specific
format of Army Pamphlet 385-40. The Board Recorder used Corps of Engineers
Pamphlet 385-1-40, “Safety and Occupational Health Boards of Investigation,”
May 31, 1991, as a guide.

       The Board planned and conducted the investigation simultaneously. The
Board President named an ad hoc group of experienced technical experts to
conduct the investigation the day following the event. The Board Recorder


                                      6
performed initial planning and the Board assembled and held their initial meeting
on site. In this case, the lack of prior planning did not seem to distract from the
quality of the investigation.

        The data collection conducted by the Board was sufficient to develop
accident causation. Since the Board Recorder used Corps of Engineers
Pamphlet 385-1-40 as a guide, accident data were not organized into the
categories listed in Army Pamphlet 385-40. However, EG&G employees,
managers at TOCDF, and other government officials involved with the
investigation stated that the Board obtained the appropriate evidence. In addition,
the Board took full advantage of data resulting from the EG&G investigation,
while remaining independent of the contractor’s conclusions. Finally,
interviewees believed that the Board members conducted thorough, competent
interviews.

        Board members analyzed the data to establish a chronology, identify
errors and system inadequacies, and develop recommendations for corrective
actions. The Board developed a detailed chronology of the accident, starting with
the shift change meeting prior to the accident and ending with the release of the
exposed worker from the clinic almost 9 hours later. They achieved consensus on
accident causation and identified 50 findings, including 12 direct causes, 20
indirect causes, and 18 observations, from which they developed 3 root causes.
The Board also developed 97 recommendations directed at the systems contractor
and multiple organizations within the Army for corrective action. We concluded
that the recommendations flowed from the facts and analysis presented.

        Investigation Recording. The Army Board summarized the results of
their investigation in a general use safety accident investigation report that was
timely and comprehensive. The ASA(I&E) signed the completed report 70 days
after appointing the Board President. The findings and recommendations covered
actions before, during, and after the accident, including aspects of planning,
oversight, management, safety, and medical response operations. While the
report contained all the elements of an investigation narrative according to Army
Pamphlet 385-40, we believe there were two significant omissions: there was no
stated completion date for a corrective action plan, and root causes did not
address engineering failures.
        The Board report did not provide required completion dates for any
corrective actions. However, the report stated that plant operations should not
resume until TOCDF operations implement recommendations related to direct
causes. The report also stated that for all other recommendations, PMCD and the
PMCD field office at TOCDF should conduct oversight of the service contractors,
implementation and provide confirmation to the ASA(I&E) .

       Valve failure allowed agent migration beyond the expected agent
boundary. In the report, the Board identified failed components as an indirect
cause of the accident, and the failure of EG&G engineers to verify agent
migration as an observation. We believed that agent located outside the expected
boundary was at least a direct cause of the incident, and that to prevent
reoccurrence the Army needs to fix the agent migration problem. While the



                                     7
    Board report did not sufficiently stress the impact of valve failure,
    implementation of report recommendations should address the problem.


TOCDF Safety Concern Reporting Process
    TOCDF did not have a healthy safety culture, defined as a set of attitudes and
    attributes reflected in workers, supervisors, and managers that safety is the
    fundamental priority and prerequisite for doing work. The Army investigation
    report concluded that the common theme of their findings and observations was
    an ineffective safety culture. The report further stated that a healthy safety culture
    should encourage the reporting of near misses and potential problems without the
    fear of reprisal to improve procedures and deter the recurrence of problems. We
    assessed the EG&G safety culture and process for reporting safety concerns by
    interviewing the contractor employees, attending a meeting of the safety
    committee, and conducting an anonymous safety opinion survey of 212
    employees with TOCDF plant access from the day and evening shifts. See
    Appendix B for a copy of the survey. The following table provides overall survey
    results.

                 Tooele Chemical Agent Disposal Facility Survey Results1
                                 Question                                  Yes                No
    Are you aware of the hazard- reporting processes in place at
                                                                         198     93%     14         7%
    TOCDF?
    Do you feel that others will dismiss your concerns if you report a
                                                                          40     19    166         78
    safety issue or hazard?
    Have you ever raised a safety/hazard concern using the formal
                                                                          93     44    118         56
    reporting system?
    If you have reported a concern, did management adequately
                                                                          82     39      37        172
    respond to your issue?
    Would you be more willing to voice concerns if you could report
                                                                          51     24    150         71
    them outside the company?
    To the best of your knowledge, does management follow
                                                                         163     77      31        15
    published hazard-reporting procedures?
    Does management encourage employees to report health or
                                                                         187     88      19         9
    safety-related issues to supervisors?
    Do you feel comfortable raising safety/hazard concerns to your
                                                                         174     82      37        17
    supervisor?
    Have you ever been told to just fix a problem and not report it?      33     16    174         82
    Do you know of anyone that reported a safety concern at the
                                                                          26     12    178         84
    TOCDF and later [their] employment was terminated?
    Do you think TOCDF places production above safety?                   110 52           89 42
    Do you know of any worker who was exposed to chemical agent
                                                                            8     4     199 94
    but did not report the incident?
    1
      The percentages in the table may not sum to 100 percent because several respondents chose “Not
    Applicable” or declined to answer the question.
    2
     The percentages for this question are reduced because a response was dependent on a “Yes”
    response to the prior question.



                                                8
    Informal Reporting Process. EG&G did not have a documented process for
    reporting safety concerns. On-site management stated that safety was the
    responsibility of every employee, and advised employees to address concerns
    either through their direct chain of command or committees such as the Employee
    Safety Committee. The survey results indicated that approximately one-quarter of
    the survey respondents believed that their management either dismissed or did not
    adequately respond to their concerns. We conclude that due to a lack of a
    documented process, neither the contractor nor the Army could verify or disprove
    this belief.

    Employee and Management Communications. Through interviews with
    EG&G employees, we identified that communication between employees and
    supervisors was ineffective and employees were not comfortable raising concerns
    to their direct supervisor. The survey results provided contradictory views of the
    communication between employees and managers. A high number of
    respondents felt comfortable raising a safety concern to their supervisor (82
    percent), were aware of the safety reporting process (93 percent), and believed
    management encourages safety reporting (88 percent). However, the results also
    indicated that approximately a quarter of the survey respondents would be more
    comfortable reporting concerns outside of the company, while 16 percent of the
    survey respondents stated they had been told to fix a problem and not report it. A
    more disturbing result was that eight respondents indicated knowledge of an
    unreported worker exposure.

    Production and Safety. Our survey results indicated that 52 percent of the
    employees believed that management placed production above safety, and
    12 percent knew of persons that reported safety concerns and were later
    terminated. The ASA(I&E) also perceived that EG&G stressed production over
    safety at TOCDF. For example, the negotiated contract for TOCDF operations
    included a million dollar bonus if EG&G completed destruction of GB agent prior
    to the opening of the 2002 Winter Olympic Games in Utah. The ASA(I&E)
    believed this increased the risk of a chemical agent accident and stated he had the
    contract changed. Further, in its internal investigation report on chemical agent
    exposure on July 15, 2002, the contractor’s investigation team stated that facility
    management must focus on improving the safety culture at TOCDF.


Federal Agency Accident Investigation Process Comparison
    The Army investigation and corrective action process compares favorably with
    our review of similar processes in the Navy, Air Force, Department of Energy,
    National Transportation Safety Board, and National Aeronautics and Space
    Administration (Appendix C). All the processes, with the exception of the
    National Transportation Safety Board, categorized accidents and mishaps based
    upon the following characteristics: the occurrence of a fatality, occurrence and
    severity of a disability, hospitalization of persons, lost workdays, and monetary
    damage or estimated property loss. Following the occurrence of an accident or
    mishap, all the Federal agencies reviewed have established notification
    procedures. Federal agencies reviewed conduct investigations through


                                         9
    interviews, examination of policies and procedures, and on-site analysis of
    systems and facilities. All investigation boards are appointed in accordance with
    independence standards, and tasked to identify accident causes and make
    recommendations to prevent reoccurrence. All boards of investigation were
    required to submit formal reports. While finalizing reports, all Federal agencies
    required the organization with responsibility for the accident to submit corrective
    actions and requirements necessary to prevent the accident or mishap
    reoccurrence. In all cases, the purpose of the investigation is to identify accident
    causes and make recommendations to prevent reoccurrence.


Corrective Action
    Army Regulation 385-40 requires Boards of Investigation for chemical agent
    events to provide reports to the commander of the major command where the
    accident occurred. Normally, the commander forwards reports to the Office of
    the Chief of Staff, Director of Army Safety within 90 days of an accident.
    Forwarding endorsements should contain corrective actions taken to date and
    milestones for future corrective actions. The Army investigation report
    concerning the TOCDF incident, including a request for a corrective action plan,
    was signed on September 23, 2002.

    On October 17, 2002, PMCD provided the office of the ASA(I&E) with a
    corrective action plan including proposed suspense dates addressing all report
    recommendations. The ASA(I&E) stated that the Deputy Assistant Secretary of
    the Army for Environment, Safety, and Occupational Health would track
    corrective actions and conduct on-site verification. In addition, the Assistant to
    the Secretary of Defense (Nuclear and Chemical and Biological Defense
    Programs) stated that he would ensure participation of the Office of the Secretary
    of Defense during the on-site verification. Army officials further stated that
    TOCDF would not resume operation until the corrective actions related to direct
    causes of the accident were implemented. PMCD reported completion of
    corrective actions associated with the direct causes of the worker exposure during
    the first week in January 2003. On January 13, 2003, the Deputy Assistant
    Secretary of the Army for Environment, Safety, and Occupational Health led a
    multidisciplined team to TOCDF to verify completion.


Conclusion
    According to the Deputy Assistant Secretary of the Army for Chemical
    Demilitarization, EG&G workers at the TOCDF “lost their agent sense” for the
    dangers associated with GB agent during the maintenance period between agent
    destruction campaigns. This lessened awareness to danger, poor internal
    communications, and a weak safety culture led to the chemical agent accident of
    July 15, 2002. According to DoD policy and Army regulations, the resulting
    worker exposure was not classified a significant accident. However, the Army
    response included concurrent investigations by the systems contractor and the
    Army Secretariat. We believe that the decision by the ASA(I&E) to treat the


                                         10
worker exposure as a serious accident, conduct an investigation led by senior
Army management, and use the investigation findings to generate program
improvement was the correct response.

Based on interviews with participants, personal observations, and discussions
with experienced accident investigators, we concluded that the Board President
assembled a fully qualified team, conducted a complete investigation of the
incident, and produced a comprehensive report of Board findings. On October 3,
2002, the Deputy PMCD published a Safety Improvement Program for the
chemical demilitarization program incorporating general findings in the Board of
Investigation report. PMCD also developed a specific corrective action plan to
address recommendations from the Board of Investigation.

The ASA(I&E) stated that the limited release of the investigation report in
accordance with Army Regulation 385-40 hinders both implementing of
corrective actions and sharing useful findings and recommendations across the
chemical demilitarization program. In addition, as of December 2, 2002, the
Army had not filled the PMCD program manager position, and planned to transfer
program responsibility from the ASA(I&E) to Assistant Secretary of the Army for
Acquisition, Logistics, and Technology. Provided that the Army overcomes these
obstacles and accurately tracks and verifies the correction of identified
deficiencies, the investigation will have met the intent and purpose of preventing
accident reoccurrence.




                                    11
Appendix A. Scope and Methodology
      The scope of this report is limited to the specific areas requested by the Assistant
      to the Secretary of Defense (Nuclear and Chemical and Biological Defense
      Programs). We evaluated the Army’s Board of Investigation procedures and
      subsequent report for the chemical agent event. We limited our review of other
      Federal agency investigation procedures and corrective action development to the
      published policies and procedures of the Navy, Air Force, Department of Energy,
      National Transportation Safety Board, and National Aeronautics and Space
      Administration. We did not review the management control program because it
      was not an announced objective.

      We reviewed pertinent DoD and Army policies and regulations, dated from
      November 1, 1994, through October 12, 2001. We interviewed the ASA(I&E),
      Board members, and Government and contractor employees at PMCD and
      TOCDF. We visited PMCD headquarters and TOCDF. At TOCDF, we toured
      the facility where the accident occurred and conducted an employee opinion
      survey of the safety reporting process.

      We performed this evaluation from August 2002 through January 2003 according
      to standards implemented by the Inspector General of the Department of Defense.

      Use of Computer-Processed Data. We did not use computer-processed data to
      perform this review.

      Use of Technical Assistance. Members of the Quantitative Methods Division,
      Office of the Inspector General of the Department of Defense assisted us in
      developing the survey questionnaire used at TOCDF, and analyzing, tabulating,
      and reporting survey results. Their work did not include projecting survey results
      to the larger population at TOCDF. Finally, we used senior accident investigators
      from the Department of Energy as consultants to perform an independent analysis
      of the adequacy of the Army Board report.


Prior Coverage
      During the last 5 years, the General Accounting office (GAO) and the Inspector
      General of the Department of Defense (IG DoD) have issued two reports
      discussing chemical agent related issues. Unrestricted GAO reports can be
      accessed over the Internet at http://www.gao.gov. Unrestricted Inspector General
      of the Department of Defense reports can be accessed at
      http://www.dodig.osd.mil/audit/reports.

GAO
      GAO Report No. GAO-02-890, “Chemical Weapons: Lessons Learned Program
      Generally Effective but Could Be Improved and Expanded,” September 10, 2002



                                           12
IG DoD
    IG DoD Report No. 98-051, “Chemical Event at Tooele Chemical Agent Disposal
    Facility,” January 20, 1998




                                     13
                                                   TOCDF Safety Opinion Survey
               Background of this Questionnaire                                       (Please circle the answer that applies)


     WHAT IS THIS?                                                      1    Are you aware of the hazard-reporting processes in place    Y   N   N/A
     The questionnaire asks about your experiences, opinions, and            at TOCDF?
     perceptions. This questionnaire is being administered as one
     part of an Inspector General of the Department of Defense          2    Do you feel that others will dismiss your concerns if you   Y   N   N/A
                                                                             report a safety issue or hazard?
     assessment of the facility’s process for employee reporting of
     safety concerns.                                                   3    Have you ever raised a safety/hazard concern using the      Y   N   N/A
                                                                             formal reporting system?
     WILL MY RESPONSES BE KEPT PRIVATE?
     YES. Your responses will be combined with those from other         4    If you have reported a concern, did management              Y   N   N/A
     people and will be used to report the experiences, opinions, and        adequately respond to your issue?
     perceptions of workers at the TOCDF. Please do not provide
                                                                        5    Would you be more willing to voice concerns if you could    Y   N   N/A
     any personal names or information anywhere on this                      report them outside the company?




14
     questionnaire.
                                                                        6    To the best of your knowledge, does management follow       Y   N   N/A
     WHY ME?                                                                 published hazard-reporting procedures?
     All employees are directly affected by safety issues at the
     TOCDF. Based on your responses and the responses of others,        7    Does management encourage employees to report health or     Y   N   N/A
     conclusions may be drawn about the safety reporting process at          safety-related issues to supervisors?
     TOCDF. The validity of these conclusions depends on active         8    Do you feel comfortable raising safety/hazard concerns to   Y   N   N/A
     participation from individuals like yourself.                           your supervisor?

     WHY SHOULD I BOTHER?                                               9    Have you ever been told to just fix a problem and not       Y   N   N/A
     Questionnaire findings may result in changes that affect you            report it?
                                                                                                                                                       Appendix B. Employee Opinion Survey




     and other TOCDF personnel. Please complete and turn in
                                                                        10   Do you know of anyone that reported a safety concern at     Y   N   N/A
     your survey at the end of your shift.
                                                                             the TOCDF and later [their] employment was terminated?
     WHAT IF I REALLY WANT TO TALK?                                     11   Do you think TOCDF places production above safety?          Y   N   N/A
     You may call in additional comments to the Inspector General.
     Call:   Mr. George Marquardt at 703-604-9275 or
             Mr. Wei Wu at 703-604-9316.                                12   Do you know of any worker who was exposed to chemical       Y   N   N/A
                                                                             agent but did not report the incident?
Appendix C. Federal Agency Accident
            Investigation Processes
The accident investigation process for the Army, Navy, Air Force, Department of
Energy, National Transportation Safety Board, and the National Aeronautics and Space
Administration contains identical elements: notification, classification, investigation,
reporting, and recommendations leading to corrective actions. In all cases, the primary
purpose of the safety investigation is to identify accident causes and make
recommendations to prevent reoccurrence of a similar event.

Notification. In all cases, policy required organizations to report serious accidents.
Agency policies required notification to responsible individuals within the organization,
and contained guidelines for information release to the Occupational Safety and Health
Administration and the media.

Classification. All of the accident investigation processes reviewed, with the exception
of the National Transportation Safety Board, required accident severity classification
based on the occurrence of a fatality, the occurrence and severity of disabilities received,
hospitalization, lost workdays, and monetary damage or estimated property loss. For the
Army, Navy, Air Force, and National Aeronautics and Space Administration, the most
serious accident involves a fatality, permanent total disability, or the damage or loss of
property greater than or equal to $1 million. Department of Energy policy limited
fatalities to those occurring within 30 days of the accident, and established a $2.5 million
threshold. The National Transportation Safety Board classified accidents based upon the
safety issues that arise from the event.

Investigation. All the organizations required the formal appointment of experienced,
trained members to investigation boards. The required composition of boards varied
greatly among organizations, but all established independence requirements for board
members. While investigation methodologies differed, all boards were given the goal of
future accident prevention through identification of accident causation and development
of material, process, and procedure improvements. In addition, the National Aeronautics
and Space Administration’s guidance contained alternative procedures for criminal or
legal investigations.

Reporting. The accident investigation processes reviewed all required investigation
boards to submit formal reports. The suggested time from the accident to report
completion varied greatly, from 60 days for the National Aeronautics and Space
Administration, to no explicit time limit for the National Transportation Safety Board.

Corrective Action. Accident investigation policy required Boards of Investigation to
make recommendations for corrective actions to prevent accident or mishap
reoccurrence. Organizations were required to either submit the corrective action plan
with the approved report or shortly thereafter. However, monitoring and verification
procedures varied among the agencies reviewed.




                                             15
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Assistant to the Secretary of Defense (Nuclear and Chemical and Biological [NCB]
    Defense Programs)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Installations and Environment)
Inspector General, Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organizations and Individuals
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform




                                          16
Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member (cont’d)
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          17
Assistant to the Secretary of Defense (Nuclear
and Chemical and Biological Defense Programs)
Comments
                                                 Final Report
                                                  Reference




                                                 Corrected




                                                 Revised




                      19
Team Members
The Contract Management Directorate, Office of the Assistant Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Robert K. West
William C. Gallagher
George P. Marquardt
Wei K. Wu
Daniel S. Battitori
Angelina Johnston
Brian S. Benner
Lisa C. Rose-Pressley
